No. 21-82

IN THE

'upreme Court of tfte ?finite', iketteo
ALPINE SECURITIES CORPORATION,

Petitioner,
v.
UNITED STATES SECURITIES AND EXCHANGE
COMMISSION,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF FORMER FINCEN OFFICIALS
JAMES H. FREIS, JR. AND CHARLES M.
STEELE AS AMICI CURIAE IN SUPPORT OF
CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,408 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2021.

C• t~a
Colin Cas Hogan
Wilson-Epes Printing Co., Inc.

